officer in-                   I
                     Closeout of ~90120049
This case was referred to OIG by
                                  - -
                on December 13. 1990.
                                           -
                                                       a program
                                        He had received a letter

complainant alleged that a reviewer had violated the
confidentiality of the review process by using material from a
proposal submitted by the complainant in a published article.
However, the complainant refused to identify the reviewer or the
article. He is an untenured faculty member and fears reprisals
from the reviewer, who he says is a senior person in the field.
He did indicate that the amount of copying was very small.
OIG examined some review articles published by reviewers of' the
proposal, but without finding evidence of plagiarism or
intellectual theft. From the information provided, and without
the cooperation of the complainant, OIG has not been able to
identify the reviewer with certainty.      A much wider search,
involving the examination of the publications of all the
reviewers of the proposal, might identify the guilty reviewer, if
such a person exists.       However, this is not a practical
undertaking in view of the resources of OIG, especially since the
harm being alleged is very slight. Consequently, this case is
being closed.
